No. 19-1189
IN THE

Supreme Court of the United States
B.P. P.L.C., ET AL., PETITIONERS
v.
MAYOR & CITY COUNCIL OF BALTIMORE, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEAL
FOR THE FOURTH CIRCUIT
BRIEF OF RESPONDENT
MAYOR & CITY COUNCIL OF BALTIMORE
IN OPPOSITION
CERTIFICATE OF COMPLIANCE

I, Victor M. Sher, counsel of record for respondent and a member in good
standing of the bar of this Court, certify that the Brief of Respondent Mayor & City
Council of Baltimore in Opposition in the above-captioned case contains 8,768 words,
excluding the parts of the opposition that are exempted by Rule 33.1(d).

Dated: June 29, 2020

/s/ Victor M. Sher
Victor M. Sher

1

